           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
     CLAIMED BY THE OKLAHOMA
     DISABILITY DETERMINATION
              SERVICES

     January 2006   A-07-05-15102




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   January 24, 2006                                               Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Administrative Costs Claimed by the Oklahoma Disability Determination Services
        (A-07-05-15102)

        OBJECTIVE

        The objectives of our audit were to evaluate the Oklahoma Disability Determination
        Services’ (OK-DDS) internal controls over the accounting and reporting of administrative
        costs, determine whether costs claimed were allowable and funds were properly drawn,
        and assess limited areas of the general security controls environment.

        BACKGROUND

        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program,
        established under Title XVI of the Act, provides benefits to financially needy individuals
        who are aged, blind, and/or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by Disability Determination
        Services (DDS) in each State, Puerto Rico and the District of Columbia in accordance
        with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, each
        DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
        consultative basis to supplement evidence obtained from the claimants’ physicians or
        other treating sources.



        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Ramona Schuenemeyer

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with the Office
of Management and Budget’s (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the fiscal year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs (SSA-
4513) to account for program disbursements and unliquidated obligations. 4 The SSA-
4513 reports expenditures and unliquidated obligations for personnel service costs,
medical costs, indirect costs, and all other nonpersonnel costs.

The Oklahoma Department of Rehabilitation Services (OK-DRS) is the OK-DDS’s
parent agency. The OK-DDS is located in Oklahoma City, Oklahoma.

RESULTS OF REVIEW
Generally, the OK-DDS had effective internal controls over the accounting and reporting
of administrative costs. However, improvements are needed in the areas of
unliquidated obligations, cash management, and personnel. With the exception of the
OK-DDS not returning funds from cancelled and outdated warrants to SSA, the costs
claimed during our audit period were allowable.

UNLIQUIDATED OBLIGATIONS

As of June 30, 2005, the OK-DDS reported unliquidated obligations of $88,681 and
$170,772 for FYs 2003 and 2004, respectively that were not supported by valid
documentation, such as purchase orders. 5 SSA instructions state in part, that valid
unliquidated obligations should be supported by documents/records that describe the




2
    31 C.F.R. § 205.1 et seq.
3
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058. 1990 (codified at 31
U.S.C.§ 6501 (1990).
4
  See Program Operations Manual System (POMS), DI 39506.200(B)(4) (Unliquidated obligations
represent obligations for which payment has not yet been made. Unpaid obligations are considered
unliquidated whether or not the goods or services have been received.)
5
 The amount of unliquidated obligations was obtained from both the FY 2003 SSA-4513 and the FY 2004
SSA-4513 for the quarter ending June 30, 2005.
Page 3 - Ramona Schuenemeyer

nature of the obligations and support the amounts recorded. 6 SSA’s ability to effectively
manage the allocation and use of budgeted funds is lessened when unliquidated
obligations are not accurately reported.

The OK-DDS agreed the unliquidated obligations were unsupported and stated that it
plans to improve its system to accurately report unliquidated obligations. The OK-DDS
provided us with the SSA-4513s for the quarter ending September 30, 2005, which
showed that unliquidated obligations were reduced to amounts supported by valid
documentation. SSA should ensure that the OK-DDS implements procedures to
accurately report unliquidated obligations.

CASH MANAGEMENT

ASAP Account Balance

As of September 2005, excess funding authorization existed in the FYs 2003 and 2004
ASAP accounts in the amounts of $33,598 and $174,342, respectively. 7 SSA
establishes the DDS’ funding authority for each account within the ASAP system.
Funds drawn through the ASAP system are restricted solely for program use and any
unused funds are to be returned to Treasury. 8 SSA should reduce DDS funding
authorizations when they are no longer needed to make disability determinations.
Rescinding excess funding authorization will decrease the risk of funds being spent on
expenditures not related to the proper FY.

Cash Draws

The OK-DDS’s parent agency, OK-DRS, drew funds from one FY’s ASAP account to
pay another FY’s expenditures. Specifically, the OK-DRS used FY 2002 funds to pay
for FY 2003 expenditures in the amount of $900,000. The OK-DRS stated that this was
a mistake and to correct the error, $150,742 was transferred to the FY 2002 ASAP
account from the FY 2003 ASAP account and FY 2003 funds of $749,258 was used to
pay FY 2002 expenditures.

The improper transfer of funds between ASAP accounts and the use of one FY’s funds
to pay another FY’s expenditures violates Federal law which states, “The balance of an
appropriation or fund limited for obligation to a definite period is available only for



6
    POMS, DI 39506.203, Updating and Reconciling Unliquidated Obligations.
7
  Excess funding authority occurred in the ASAP system when the OK-DDS deobligated the unsupported
unliquidated obligations identified in our audit to amounts supported by valid documentation. Although
the unsupported unliquidated obligations were deobligated, SSA has not reduced the excess funding
authority in the ASAP system that resulted from the deobligation.
8
    42 U.S.C. § 421 (f).
Page 4 - Ramona Schuenemeyer

payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability and obligated consistent with
section 1501 of this title.” 9

The ASAP system has a feature that allows recipients of Federal funds to transfer cash
between accounts. SSA has the option to have this feature disabled. However, the
Dallas Regional Office prefers that the feature remain enabled to allow DDSs to transfer
funds between ASAP accounts, as needed. If the feature remains enabled, the
Regional Office needs to establish an oversight process to properly monitor DDS cash
management activities, including the transfers of funds between ASAP accounts. The
lack of proper oversight of DDS cash management activities places Federal funds at
risk of mismanagement.

Cancelled and Outdated Warrants

The OK-DDS’ parent agency, OK-DRS, did not have a process in place to return all
funds from cancelled and outdated warrants (checks) to SSA. Our review of cancelled
and outdated warrants for the month of August 2004 disclosed that the OK-DRS did not
return $1,095 from cancelled and outdated warrants to SSA, as shown in the following
table. 10

                                                                   PERCENTAGE             FUNDS
                                              NUMBER OF            OF WARRANTS            FROM
                                              WARRANTS             WHERE FUNDS          WARRANTS
        WARRANT                             WITH FUNDS NOT          WERE NOT               NOT
      CLASSIFICATION        NUMBER OF        RETURNED TO           RETURNED TO          RETURNED
     FOR AUGUST 2004        WARRANTS              SSA                  SSA               TO SSA
         Statutory 11                 59                     55                 93%            $1,068
           Hard 12                     6                      1                 17%               $27

According to Federal regulations, “All money paid to a State under this section shall be
used solely for the purposes for which it is paid; and any money so paid which is not
used for such purposes shall be returned to the Treasury of the United States for
deposit in the Trust Funds.” 13

9
    31 U.S.C. § 1502 (a).
10
  In March 2005, we requested documentation from the OK-DRS on cancelled and outdated warrants for
FYs 2003 and 2004. As of the date of this report, the OK-DRS only provided us with complete
documentation for August 2004.
11
  OK-DRS classifies statutory cancelled warrants as warrants issued by the State that remain
outstanding for a period of ninety days after funds are available.
12
  OK-DRS classifies hard cancelled warrants as warrants cancelled for reasons other than being
outstanding.
13
     42 U.S.C. § 421 (f).
Page 5 - Ramona Schuenemeyer

The OK-DRS stated that it is in the process of improving procedures to ensure that
funds from cancelled and outdated warrants are returned to SSA. The OK-DRS should
identify all cancelled and outdated warrants related to the OK-DDS for October 1, 2002
through September 30, 2005, and return the funds to SSA.

PERSONNEL

The OK-DDS did not review the Department of Health and Human Services (HHS),
Office of the Inspector General (OIG) Monthly Report of Exclusions Sanction Listings
and Reinstatements to ensure that medical consultants were not sanctioned from
participation in any Federal or federally-assisted program. As part of the background
checks for DDS medical consultants, SSA policy states that DDSs should review the
HHS OIG Monthly Report of Exclusions Sanction Listings and Reinstatements. This
listing contains names of physicians and health care providers whose services have
been suspended for improprieties in the field of health care and is provided by other
Federal agencies, such as the Centers for Medicare and Medicaid Services. 14

The OK-DDS is at risk of contracting with medical consultants whose services have
been sanctioned by other Federal agencies, if it does not review the HHS sanction
listings. The OK-DDS stated that it was unaware of the requirement to review the HHS
sanction listing, but will do so in the future. Since learning of this requirement, the
OK-DDS stated it reviewed the sanction listing and none of its current medical
consultants were listed. The OK-DDS plans to incorporate this process with its existing
medical consultant background check procedures.

CONCLUSION AND RECOMMENDATIONS
Generally, the OK-DDS had effective internal controls over the accounting and reporting
of administrative costs. However, improvements are needed in the areas of
unliquidated obligations, cash management, and personnel. With the exception of our
findings related to cancelled and outdated warrants, the costs claimed by the OK-DDS
during our audit period were allowable.

We recommend that the SSA Regional Commissioner:

1. Instruct the OK-DDS to implement procedures to ensure unliquidated obligations are
   accurately reported.

2. Rescind the excess ASAP funding authority of $33,598 and $174,342 for FYs 2003
   and 2004, respectively.

3. Establish an oversight process to properly monitor DDS cash management activities,
   including the transfer of funds between ASAP accounts.


14
     POMS, DI 39569.004, (D) (1) (a) Program Integrity.
Page 6 - Ramona Schuenemeyer

4. Instruct the OK-DDS to refund $1,095 related to cancelled and outdated warrants for
   August 2004.

5. Require the OK-DDS to identify all funds from cancelled and outdated warrants from
   October 1, 2002 to September 30, 2005, and return the funds to SSA.

6. Instruct the OK-DDS to implement procedures to ensure funds from cancelled and
   outdated warrants are returned to SSA in the future.

7. Ensure the OK-DDS reviews the HHS OIG Monthly Report of Exclusions Sanction
   Listings and Reinstatements as part of its medical consultant background check
   process.

Agency Comments
In commenting on our draft report, SSA and OK-DRS agreed with our
recommendations. See Appendix C and D respectively, for the full text of SSA’s and
OK-DRS’s comments.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payments System
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FY         Fiscal Year
HHS        Department of Health and Human Services
OIG        Office of the Inspector General
OK-DDS     Oklahoma Disability Determination Services
OK-DRS     Oklahoma Department of Rehabilitation Services
OMB        Office of Management and Budget
POMS       Program Operations Manual System
Pub. L.    Public Law
SSA        Social Security Administration
SSI        Supplemental Security Income
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                     Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

 • Reviewed applicable Federal laws and regulations, pertinent parts of Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Oklahoma Disability
    Determination Services (OK-DDS) and the drawdown of SSA program grant funds.

 • Interviewed staff and officials at the OK-DDS, Oklahoma Department of
    Rehabilitation Services (OK-DRS), and the SSA Dallas Regional Office.

 • Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

 • Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

 • Reconciled State accounting records to the administrative costs reported by the
    OK-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Fiscal Years (FY) 2003 through 2004.

 • Examined specific administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by the OK-DDS for FYs 2003 and
    2004 on the SSA-4513. We used statistical sampling to select expenditures to test
    for support of the medical service and all other nonpersonnel costs.

 • Examined the indirect costs claimed by the OK-DDS for FYs 2003 through 2004.

 • Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the SSA-4513.

 • Determined whether funds from August 2004 cancelled warrants were properly
    returned to SSA.

 • Determined if unliquidated obligations were properly supported.

 • Reviewed OK-DDS general security controls related to physical security and
    continuity of operations.



                                         B-1
We determined that the data provided by OK-DRS and OK-DDS used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the OK-DDS and OK-DRS in Oklahoma City, Oklahoma and the
Office of Audit in Kansas City, Missouri. We conducted fieldwork from April 2005
through September 2005. The audit was conducted in accordance with generally
accepted government auditing standards.

METHODOLOGY

SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained a data extract of all costs and the associated invoices for
FYs 2003 through 2004 for use in statistical sampling. This was obtained from the
accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected a one-month pay period in the most recent year under review.
We then selected a random sample of regular employees for review and testing of the
payroll records.

For medical consultant costs, we selected two pay periods from the most recent year
under review. We selected two pay periods because during our audit period the
medical consultants were converted from contractual employees to OK-DDS
employees; therefore, paid by two different methods. The first pay period selected was
prior to the medical consultants being converted to OK-DDS employees. The second
pay period selected was after the medical consultants were converted to OK-DDS
employees. For each pay period, we reviewed the same medical consultants and
verified that the medical consultants were paid correctly before and after the conversion.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical cost based on the proportion of medical evidence of record and consultative
examination costs to the total medical costs claimed.




                                           B-2
Indirect Costs

OK-DDS indirect costs are computed by applying a federally approved rate to a cost
base. 1 This methodology was approved by the Department of Education, which is the
Federal agency designated to negotiate and approve the indirect cost rate. As of
June 30, 2005, the OK-DDS claimed indirect costs of $836,623 for FY 2003 and
$973,948 for FY 2004. We reviewed the FY 2003 and 2004 indirect cost calculations to
ensure the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 100 items (50 expenditures from each FY) using a stratified random
sample. The random sample was based on the proportion of costs in each of the cost
categories to the total costs claimed.




1
  The cost base represents the total of direct costs less capital expenditures, alterations, renovations, flow
through funds and that portion of each sub award in excess of $25,000 per year. Terminal leave will be
allocated as an indirect cost. All items having an acquisition cost of $5,000 or more and an estimated
useful life of at least one year are classified as equipment.




                                                    B-3
                                                                                      Appendix C

           Agency Comments
MEMORANDUM

Date:      January 9, 2006

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Ramona Schuenemeyer
           Regional Commissioner
           Dallas

Subject:   Administrative Costs Claimed by the Oklahoma Disability Determination Services
           (A-07-05-15102) -- Reply


           We appreciate the opportunity to comment on this draft audit report. We are in agreement with
           each of the recommendations and are working with the Oklahoma Disability Determination
           Services (DDS) and Department of Rehabilitative Services (DRS) to implement any necessary
           changes. We appreciate the willingness of the OIG Audit staff to work with us during the
           course of the audit.

           Our responses to the recommendations contained in the narrative report are as follows:

           1. Instruct the Oklahoma DDS to implement procedures to ensure unliquidated obligations are
              accurately reported.

                 We concur. We will review DRS/DDS procedures to ensure unliquidated obligations are
                 supported and accurately reported.

           2. Rescind the excess Automated Standard Application for Payments (ASAP) funding
              authority for FYs 2003 and 2004.

                 This finding has been implemented. Revised budget approvals were issued in December
                 2005 to reflect the amount reported on the SSA-4513 quarterly obligations report as of
                 September 30, 2005.

           3. Establish an oversight process to properly monitor DDS cash management activities,
              including the transfer of funds between ASAP accounts.

                 The Office of Finance monitors DDS cash draws in ASAP to ensure funds are not



                                                         C-1
      overdrawn. We will continue to work with them on cash management and explore
      options available to monitor the transfer of funds between ASAP accounts.

4. Instruct the Oklahoma DRS to refund $1,095 related to cancelled and outdated warrants for
   August 2004.

     We concur. We will request a refund for these cancelled warrants.

5. Require the Oklahoma DRS to identify all funds from cancelled and outdated warrants from
   October 1, 2002 to September 30, 2005, and return the funds to SSA.

      We concur. Oklahoma DRS is reviewing their procedures to ensure funds from cancelled
      and outdated warrants are identified and returned to SSA.

6. Instruct the Oklahoma DRS to implement procedures to ensure funds from cancelled and
   outdated warrants are returned to SSA in the future.

      We concur. Oklahoma DRS is reviewing their procedures to ensure funds from cancelled
      and outdated warrants are returned to SSA.

7. Ensure the Oklahoma DDS reviews the HHS OIG Monthly Report of Exclusions Sanction
   Listings and Reinstatements as part of its medical consultant background check process.

      We concur. The DDS is now aware of this procedure and has incorporated this check
      into the hiring process of new medical consultants. They are also regularly checking the
      OIG sanctions database for their current medical consultant staff.

Please call me if you would like to discuss our response. If your staff has questions, please have
them call Mitchi Stover at 214-767-4281 in Management and Operations Support, Center for
Disability.




                                               C-2
                                                                       Appendix D

State Agency Comments
January 17, 2006

From: Kevin Statham
      Financial Manager
      Department of Rehabilitation Services

Recommendation
Instruct the Oklahoma Disability Determination Services (OK-DDS) to deobligate
unliquidated obligations for FYs 2003 and 2004 in the respective amounts of $88,681
and $170,772.

Agency Response
Department of Rehabilitation Services (DRS) is in the process of decreasing our FY
2003 Unliquidated Obligations by $88,886 and decreased the Fiscal Year (FY) 2004
Unliquidated Obligations by $180,508. The adjusted obligation will be reflected on the
Quarterly Report. FY 2004 is $9,736 more than the auditors figure due to a
recalculation of the Unliquidated Indirect Costs.

Recommendation
Rescind the excess Automated Standard Application for Payments System (ASAP)
funding authority for FYs 2003 and 2004.

Agency Response
Agency concurs as it pertains to rescinding excess funding. Quarterly reports will
account for adjustments above the finding as they affect the indirect cost calculation.

Recommendation
Establish an oversight process to properly monitor (Disability Determination Services)
DDS cash management activities, including the transfer of funds between ASAP
accounts.

Agency Response
Agency will comply with requirements deemed necessary by the Social Security
Administration (SSA) Regional Office.

Recommendations
Instruct the OK-DDS to refund $1,095 related to cancelled and outdated warrants for
August 2004.




                                           D-1
Require the OK-DDS to identify all cancelled and outdated warrants not properly
returned to the OK-DDS from October 1, 2002 to September 30, 2005 and return the
funds to SSA.

Instruct the OK-DDS to implement procedures to ensure funds from cancelled and
outdated warrants are returned to SSA in the future.

Agency Response
The Agency concurs with the finding and will adjust the quarterly report as necessary.
Additionally the Agency has identified and implemented processes to appropriately
adjust the expenditures.

Recommendations
Require the OK-DDS to verify that its current medical consultants are not sanctioned
from participation in any Federal or federally assisted program.

Instruct the OK-DDS to review the HHS OIG Monthly Report of Exclusions Sanction
Listings and Reinstatements as part of its medical consultant background check
process.

Agency Response
Under Personnel findings DDD has verified that all our current Medical consultants are
not on the Department of Health and Human Services OIG Monthly Report of
Exclusions Sanction Listings and Reinstatements. DDD plans to include this process
for all future medical consultants as part of their background checks.




                                          D-2
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ron Bussell, Audit Manager, Kansas City, Missouri (816) 936-5577

Acknowledgments

In addition to those named above:

   Kenneth Bennett, Information Technology Specialist

   Douglas Kelly, Auditor

   Wanda Craig, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report visit our web site at www.ssa.gov/oig or contact the
Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218. Refer to
Common Identification Number A-07-05-15102.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
